flint
No.

M-Slll,

Supreme Court. U S.
FILED

JUL 1 3 2021

IN THE
SUPREME COURT OF THE UNITED STAT^fCE 0F THE CLERK

IN RE JORDAN THOMAS TAYLOR POWELL,
Petitioner

JORDAN THOMAS TAYLOR POWELL,
Petitioner
v.
UNITED STATES PRESIDENT JOSEPH R.
BIDEN JR.; AND THE UNITED STATES SMALL
BUSINESS ADMINISTRATION,
Respondents

PETITION FOR A WRIT OF MANDAMUS
Jordan Thomas Taylor Powell
Petitioner, Pro se
1263 1st Street, SE,
#523
Washington, DC 20003
(202) 503-5284
Email: ittp@pm.me
July 13,2021

QUESTIONS PRESENTED
Technological advancement in the 21st century has led to an
innovation (involving supply chain technology and a novel
form of payment processing) allowing for outstanding
wealth creation capacity on one hand, and an electronic
weapons system with cerebral engagement capabilities on
the other. The latter is being used by Mr. Biden in an
attempt to unlawfully take the former from the Petitioner.
In addition, statutory rights of access to capital are being
unconstitutionally withheld from the Petitioner by the
Respondents. Moreover, Mr. Biden has abandoned his
Article II duties by supporting the interests of Russian
President Vladimir Putin for personal financial gain. The
questions presented are as follows:
1. Did the United States Small Business Administration fail
to complete its statutory duty by arbitrarily avoiding the
issuance of an Economic Injury Disaster Loan (EIDL) to
Petitioner's business, Pricecheck Inc.?
2. Granted verifiable facts and clear and convincing
evidence of treason done by Mr. Biden, does the Court,
in advance of an impeachment trial by Congress, have
the authority to issue orders, to all necessary executive
departments and agencies, in the name of the President
in order to prevent further harm to the United States
and to immediately ensure national security?
u

3. Does the Presidential Power of Authorization for Use of

Military Force, or any other Executive power, include
the authority to use electronic weapons against the
persons and properties of United States civilians,
without justifiable cause, even in the interest of an
attempt to avoid the very substantial cost of a lawful
taking?

m

PARTIES TO THE PROCEEDING

Petitioner is Jordan Thomas Taylor Powell, Founder and
CEO of Pricecheck Inc.
Respondent is Joseph Robinette Biden, Jr., President of
the United States.

IV

TABLE OF CONTENTS
QUESTIONS PRESENTED.........

11

PARTIES TO THE PROCEEDING,

IV

I. JURISDICTION

1

II. STATEMENT.

1

A. Introduction,

1

B. Privacy Invasive Nanotechnology............................ 3
C. The Intersect Between Electroceuticals and Mobile
Phone Towers................................................................ 6
D. Political and Personal History...........................

8

E. Biden's Longstanding Interest in Scientific Re­
searchers.................................................................

16

E. U.S. Russia-Relations Panel,

19

III. REASONS FOR GRANTING THE PETITION. .25
A. Petition of National Importance

25

B. Article II AUMF Powers are Limited by the Fourth
Amendment.
25
C. First Amendment Violations

26

IV. CONCLUSION

27

v

TABLE OF AUTHORITIES
28 U.S.C. 1651

1

United States Constitution. 4th Amendment.

25

United States Constitution. 1st Amendment.

26

vi

I. JURISDICTION

The jurisdiction of this Court is invoked under 28 U.S.C.
1651.

II. STATEMENT
A. Introduction
The facts of this case concern also, what is believed to be
a far more widespread abuse of power involving
electronic weapons. For this reason it is important also
to accept the urgent nature of this petition.
In this case, the Petitioner's demand for justice
concerning his person and property has been followed by
unconstitutional surveillance, intimidation tactics, and
large scale tampering ranging from tampering with
Petitioner's financial concerns held with financial
institutions including M&T Bank, to tampering with
Petitioners business records held by the Internal
Revenue Service. The nature of this activity is
reasonably determined to be of a scope and scale
recognizable as espionage. Moreover, Mr. Biden's refusal
to address this urgent concern administratively, reflects
complicity and treason.
1

The capabilities of the electronic weapons to be
described in more detail below, allow for exploits by
means of intimidation, and internal steering of the
otherwise integral exercise of public or private fiduciary
duty, that continues to result in, what should be,
unimaginable harm to the American people.
The explanation I am about to provide was probably
considered too complicated to share in a way that anyone
could understand and that's what has made it so
powerful but all we need is a light in this darkness to
clear the air.
Technology as we know it comes from some bright ideas
as ways to improve the things that we already have. For
this example, we'll need to consider some things you
probably already know about and that you have an
understanding of how they work. Perhaps you've heard
of the groundbreaking technology Neuralink, it's a link
to your brain that let's you control things like video
games for instance. To get a grip on how that works, it's
important to remember that our brains and bodies work
together using electrical signals. For instance, as I type
this paragraph, my brain is sending electrical signals to
my hands and that signal tells my hands where and how
to move. In case you aren't sure about that, consider how
prosthetics work. There are sensors inside those devices
that pick up the signals from the nerve endings of
patients using those devices and allows for amazing
results like the function of a hand by way of the same
electrical signals from the brain that the patient would
normally use.
2

B. Privacy Invasive Nanotechnology
The thalamus, or the sensory switchboard of the brain,
among other regions, controls all of your movement and
your thoughts and just about everything inside your
brain. Accordingly, reading those signals has been made
possible by a device like Neuralink where the signals can
be translated into ones and zeros as computer language
and can then act as an input output medium between
computers and human brains. That sounds cool in
appropriate application and with consent and
understanding but the problem we face today has to do
with lack of consent.

(a)

A system for wirelessly
powered & controlled
oplogenetics

(b)

Freely-moving
mouse equipped with
hoadbomo optical
neural control device

ComDiner

* ^

✓

Wireless power
transmitter

(c)

S'

i
11

The wireless base station:
a PC equip ped with USB-connected
wireless ho se station

>i nnnn

(d)

nnnn

Wireless device operation characteristics

1"

e

? '

11

12”’

II
II

r:

9TS

V

Dock tor mdei

Demonstration of wireless
optical control of mouse movement

J±1.

LEOs DnWItxl

.a

WeroteM Power (ttme»owerageO throughout

__

ri
po
.ixocuflrvg

OovtCO
at

oerwHWd and
executing
protocol

Uf-O* I3n»b(nd

tratn. A • PW * PR. in Watcsl

The more
technology
2011, the
Computer
Research,

commonly known implementation of the
involves surgery. For instance on June 23,
Department of Electrical Engineering &
Science, McGovern Institute for Brain
Media Lab, Department of Brain and
3

Cognitive Sciences, and the Department of Biological
Engineering at MIT published research entitled “A
Wirelessly Powered and Controlled Device for Optical
Neural Control of Freely-Behaving Animals” where such
an experiment had been successfully developed to
control the mind and function of a rodent.
However, so-called “non-invasive” versions have been
developed to be capable of introducing the technology to
the human body without a person's knowledge and
consent. While there are a variety of formulations
allowing for such a result, the two described here are an
advanced methodology for transcranial direct current
stimulation (tDCS) not involving electrodes placed
directly on the scalp, and Near Infrared Light
Activatable Nanoparticles for Deep Tissue Penetrating
Wireless Optogenetics. The former being wirelessly
engaged without any direct contact with the person and
the latter involving an electroceutical injection that is as
simple as getting a shot.
In October 2016, the U.S. National Institutes of Health
(NIH) funded electroceutical research for the
development of tools for electrically stimulating the
nervous system.1 In addition private technology and
pharmaceutical companies have also aggressively
instituted research to advance the industry.

1https://spectrum.ieee.org/the-human-os/biomedical/devices/usgovernment-awards-20-million-for-electroceuticals-research
4

BUGGING THE BRAIN
An interdisciplinary team has
created a rolled mesh of electronics
that can be injected into a mouse
skull. Once there, it unfurls and
melds with the brain tissue.

Needle

j
8 rain

/

Unfolding
mesh

i:

I

On April 12, 2017 the online neuroscience magazine
IEEE Spectrum produced an article detailing the
variety of advancement in the industry. As described
there, “Charles Lieber ... a Harvard professor of
chemistry and engineering, and [Guosong] Hong, one of
his postdocs, [were] developing an “electronic mesh” that
is injected by syringe into the brain tissue, where it
unfurls to make contact with many neurons.”2
On January 11, 2019 Ovid Technologies, Inc. published
research done by Wiley Verlag GmbH & Co. regarding
state of the art Near Infrared Light Activatable
nanoparticles for Deep Tissue Penetrating Wireless
Optogenetics. “These NIR-activatable optogentic tools
enable low-invasive “remote control” activation and
inhibition of cellular signaling pathways.”3
2https://spectrum.ieee.org/the-human-os/biomedical/devices/5NEUROSCIENCE-EXPERTS-WEIGH-IN-ON-ELON-MUSKS-MYSTERIOUSNEURAL-LACE-COMPANY

3 https://pubmed.ncbi.nlm.nih.gov/30633858/

5

C. The Intersect Between Electroceutieals and Mobile
Phone Towers
In the Emerging Communication Technologies for 5GEnabled Internet of Things Applications from Springer
Link scientific journal, the abstract reveals the following,
in part:
“The Internet of Things (IoT) is quickly spreading, arriv­
ing at ... personal health care .... It has the potential to
provide unified, efficient machine to human and machine
to machine (M2M) communication and connectivity....
5G wireless technologies have become the most challeng­
ing and exciting topic in IoT as they [are] game-changers
in the [present] generation.”4 Accordingly, the transmis­
sion of data from human minds to computers and then on
to other human minds is completed by way of mobile
phone towers.
“On October 18, 2018, a team of researchers from ETH
Zurich, the University of Lorraine and the University of
Dundee released a paper entitled, "A Formal Analysis of
5G Authentication".5 It alerted that 5G technology could
4https://link.springer.com/chapter/10.1007/978-3-030-67490-8_6
5 Basin, David; Dreier, Jannik; Hirschi, Lucca; Radomirovic,
SaSa; Sasse, Ralf; Stettler, Vincent (2018). "A Formal Analysis
of 5G Authentication". Proceedings of the 2018 ACM SIGSAC
Conference on Computer and Communications Security —CCS
18. pp. 1383-1396. https://en.wikipedia.0RG/wiki/5G#cite_note-94;
https://en.wikipedia.0RG/wiki/5G#cite_note
securityintelligence.com-95
6

open ground for a new era of security threats. The paper
described the technology as "immature and insufficiently
tested," and one that "enables the movement and access
of vastly higher quantities of data, and thus broadens at­
tack surfaces". Simultaneously, network security compa­
nies such as Fortinet6, Arbor Networks7, A10 Networks8,
and Voxility9 advised on personalized and mixed security
deployments against massive DDoS attacks foreseen af­
ter 5G deployment. >>10
6 Maddison, John (February 19,2019). "Addressing New
Security Challenges with 5G". CSO Online. Archived from the
ORIGINAL ON JULY 22, 2019. RETRIEVED JULY

22, 2019.https://en.wikipedia.org/wiki/5G#cite_note-96
7 "NETSCOUT Predicts: 5G Trends for
2019". NETSCOUT. Archived from the original on July 22,2019.
Retrieved July 22,2019.
https://en.wikipedia.0rg/wiki/5G#cite_note-97
8 "The Urgency of Network Security in the Shared LTE/5G
Era". A10 Networks. June 19,2019. Archived from the original
on July 22,2019. Retrieved July 22,2019.
https://en.wikipedia.0rg/wiki/5G#cite_note-98
9 "Security concerns in a 5G era: are networks ready for
massive DDoS attacks?", scmagazineuk.com. Retrieved July
22,2019. https://en.wikipedia.0rg/wiki/5G#cite_note-99
10 Basin, David; Dreier, Jannik; Hirschi, Lucca; Radomirovic,
Sasa; Sasse, Ralf; Stettler, Vincent (2018). "A Formal Analysis
of 5G Authentication". Proceedings of the 2018 ACM SIGSAC
Conference on Computer and Communications Security —CCS
'18. pp. 1383-4396.;"How to Prepare for the Coming 5G Security
Threats". Security Intelligence. November 26,2018.; Maddison,
John (February 19, 2019). "Addressing New Security
Challenges with 5G"; "NETSCOUT Predicts: 5G Trends for
2019". NETSCOUT.; "Security concerns in a 5 G era: are
NETWORKS READY FOR MASSIVE DDoS ATTACKS?". SCMAGAZINEUK.COM.

7

“On January 23, 2020 the service provider MTS Belarus
launched test zones, with Huawei and Cisco equipment,
of a 5G NS Anetwork in Minsk.”
“On May 22, 2020 Al, in partnership with ZTE, launched
the first 5G SA network in Belarus, in test mode, in
Minsk,11 and on May 25 it made the first call in
the CIS12 by means of VoNR (Voice over New Radio)
technology for the 5G burst transmission of voice.”

D. Political and Personal History
“In 1968, Biden earned a Juris Doctor from Syracuse
University College of Law, ranked 76th in his class of 85,
July 22,2019.
11 "Al hhhhhhh Onliner, hhh hhhhhhhhh hhhhhh hhhh "hhhhhh" 5G.
H HHHhhhU’. onliner.by. Retrieved July 17,2020.
https://en.wikipedia.0rg/wiki/5G#cite_note-157. (translation by
Google Translate: “"Al showed Onliner how it tests" pure "5G
ON ITS NETWORK. AND MTS TOO." ONLINER.BY. RETRIEVED JULY 17,

2020.”)
12 “ The Commonwealth of Independent States (CIS) is
a regional intergovernmental organization of nine (originally
ten) members, plus two founding non-member, post-Soviet
republics in Eurasia. It was formed following the dissolution
of the Soviet Union in 1991. It covers an area of
20,368,759 km2 (7,864,422 sq mi) and has an estimated population
of 239,796,010. The CIS encourages cooperation in economic,
POLITICAL AND MILITARY AFFAIRS AND HAS CERTAIN POWERS RELATING
TO THE COORDINATION OF TRADE, FINANCE, LAWMAKING, AND
security... Ukraine ended its participation in CIS statutory
bodies on 19 May 2018.”
8

after failing a course due to a plagiarized a law review ar­
ticle for a paper he wrote in law school. 5)13
Mr. Biden was “elected to the Senate in 1972, Biden was
reelected in 1978,1984,1990,1996,2002, and 2008. ))14
“Biden formally declared his candidacy for the 1988
Democratic presidential nomination on June 9, 1987. »15
He raised more in the first quarter of 1987 than any
other candidate.”16 During the campaign he made “sev­
eral false or exaggerated claims about his early life. >>17

13 Dionne Jr., E.J. (September 18, 1987). "Biden Admits
Plagiarism in School But Says It Was Not 'Malevolent' "
(https://www.nytimes.com/1987/09/18/us/biden-admitsplagiarism-in-school-but-says-it-was-not-malevolent.html).
The New York Times. The New York Times Company.
Archived
(https://web.archive.org/web/20210121022208/ht
tps://www.nytimes.com/1987/09/18/us/biden-admits-plagiarismin-school-but-says-it-was-not-malevolent.html) from the
original on January 21, 2021. Retrieved January 21,
2021https://en.wikipedia.org/wiki/Joe Biden
14 Almanac
of
American
Politics
https://en.wikipedia.org/wiki/Joe Biden

2008, p. 366.

15 Dionne Jr., E. J. (June 10,1987). "Biden Joins Campaign for
THE
Presidency"
(https://www.nytimes.com/1987/06/
10/us/biden-joins-campaign-for-the-presidency.html) . The
New York Times. Archived (https://web.archive.org/we
b/20171105150453/http://www.nytimes.com/1987/06/10/us/bidenjoins-campaign-for-the-presidency.html) from the original
on November 5, 2017. Retrieved January 24, 2021.
https://en.wikipedia.org/wiki/Joe Biden

9

“[0]n September 23, 1987, Biden withdrew from the
race, saying his candidacy had been overrun by ... past
mistakes.”
“In February 1988, after several episodes of increasingly
severe neck pain, Biden was taken by ambulance to Wal­
ter Reed Army Medical Center for surgery to correct a
leaking intracranial berry aneurysm. While recuperat­
ing, he suffered a pulmonary embolism, a serious compli­
cation. After a second aneurysm was surgically repaired
in May, Biden's recuperation kept him away from the
Senate for seven months.”
“In a 1974 interview, he described himself as ... conser­
vative on other issues, including abortion and military
conscription.”18 There is no current enforced conscription
in the United States. “Conscription (sometimes called
16 Toner, Robin (August 31, 1987). "Biden, Once the Field's
Hot Democrat, Is Being Overtaken by Cooler
Rivals"(https://www.nytimes.com/1987/08/31/us/biden-oncethe-field-s-hot-democrat-is-being-overtaken-by-coolerrivals.h
tml) . The
New York Times. Archived
(https://web.archive.0RG/web/20210103084657/https://www.nyt
imes.com/19 87/08/31/us/biden-once-the-field-s-hot-democratis-being-overtaken-by-cooler-rivals.html)
FROM
THE
original on January 3, 2021. Retrieved January 24, 2021.
Taylor (1990), p. 83. https://en.wikipedia.org/wiki/Joe_Biden
17 Dionne, E. J., Jr. (September 22, 1987). "Biden Admits
Errors and Criticizes Latest Report" (https://www.nytimes.
com/1987/09/22/us/biden-admits-errors-and-criticizes-latestreport.html) . The New York Times. Archived (https://
web.archive.org/web/20210103081243/ https ://www.nytimes.co
m/1987/09/22/us/biden-admits-errors-and-criticize s-latestreport.html) from the original on January 3, 2021.
Retrieved January 24,2021.
10

the draft in the United States is the mandatory enlist­
ment of people in a national service, most often a military
service.”
“Biden met Soviet Foreign Minister Andrei Gromyko [in
1979] to communicate American concerns and [secure]
changes that addressed the Senate Foreign Relations
Committee's objections” after a failed agreement in Con­
gress.19
“Biden was a longtime member of the Senate Foreign
Relations Committee. He became its ranking minority
member in 1997 and chaired it from June 2001 to 2003
and 2007 to 2009 >>20 « During this time he met with at
least 150 leaders from 60 countries and international or­
ganizations, becoming a well-known ... voice on foreign
policy.”
18 Kelley, Kitty (June 1,1974). "Death and the All-American
Boy" (https://www.washingtonian.com/1974/06/01/joe-b idenkitty-kelley-1974-profile-death-and-the-all-americanboy/ ). The Washingtonian. Archived (https://web.archiv
e.org/web/20201110162757/https://www.washingtonian.com/19
74/06/01/JOE-BIDEN-KITTY-KELLEY-1974-PROFILE-DEATH -AND-THEall-american-boy/) from the original on November 10, 2020.
Retrieved
March
2020.
8,
https://en.wikipedia.org/wiki/Joe Biden

19 Salacuse, Jeswald W. (2005). Leading Leaders: How to
Manage Smart, Talented, Rich and Powerful People (htt
ps://archive.org/details/leadingleadersOOjesw) . American
Management Association. ISBN 0-8144-0855-9. p. 144.
https://en.wikipedia.org/wiki/Joe Biden
20 Almanac of American Politics
https://en.wikipedia.org/wiki/Joe Biden
11

2008,p. 365.

“Biden voted against authorization for the Gulf War in
1991,” ... he became interested in military engagement in
the Balkan region while the “The George H.W. Bush ad­
ministration and Clinton administration were both reluc­
tant to implement the policy, fearing Balkan entangle­
ment.”
In April 1993, Biden spent a week in the Balkans and
held a tense three-hour meeting with Serbian leader Slo­
bodan Milosevic.” Taking a look back to 1987, the same
year Biden raised more money than any other candidate
in his campaign for President, “Milosevic emerged in
1987 as a force in Serbian politics as the 8th Plenary Ses­
sion of the League of Communists of Serbia on Septem­
ber 22, 1987,”21 the day before Biden dropped out of his
1988 Presidential campaign.
“As head of the Senate Foreign Relations Committee, he
said in 2002 that Iraqi president Saddam Hussein was a
threat to national security and there was no other option
than to "eliminate" that threat, „22 In October 2002, he
voted in favor of the Authorization for Use of Military
Force against Iraq, approving the U.S. invasion of Iraq.
21 Xinhua; 25 SEPTEMBER 1987, FRIDAY; Senior Yugoslav
Party Official Sacked Over Kosovo Issue; Belgrade, 25
September;
ITEM
NO:
0925148
https://en.wikipedia.org/wiki/Slobodan_Milosevic
22 Russert, Tim (April 29, 2007). "MTP Transcript for April 29,
2007" (http://www.nbcnews.com/id/18881961). Meet the Press.
NBC
News.
2.
Archived
P(https://web.archive.org/web/20201208191954/https://www.nbcnews.com/i d/18381961) from the original on December 8, 2020.
Retrieved January 24,2021.
12

He supported the appropriations for the occupation, but
argued that the war should be internationalized, that
more soldiers were needed, and that the Bush adminis­
tration should "level with the American people" about its
cost and length.23
“Biden had difficulty raising funds, struggled to draw
people to his rallies, and failed to gain traction against
the high-profile candidacies of Obama and Senator
Hillary Clinton”24 He never rose above single digits in na­
tional polls.... >>25
Biden was able to leverage his foreign policy and national
security experience,26 to appear as a necessary running
mate to Democratic nominee Barack Obama,27 despite
23 Almanac of American Politics 2008, p. 365.
https://en.wikipedia.org/wiki/Joe_Biden
24 "Conventions 2008: Sen. Joseph Biden (D)"
(https://web.archive.0RG/web/20080906210353/http://www.nati
onaljournal.com/conventions/co_20080825_3122.php).
National Journal. August 25,2008. Archived from the
original(http://www.nationaljournal.com/conventions/co_2
0080825_3122.php) on September 6,2008. Retrieved
September 16,2008.
25 Id.
26 Nagourney, Adam; Zeleny, Jeff (August 23,2008). "Obama
Chooses Biden as Running Mate". The New York Times.
Retrieved August 23,2008.
27 Broder, John M. (October 30, 2008). "Hitting the Backroads,
and
Having Less to Say". The New York Times.
Retrieved October 31,2008.; Tumulty, Karen (October 29,
2008). "Hidin' Biden: Reining In a Voluble No. 2". Time.
Retrieved November 1,2008.
13

' offhand remarks that attracted negative attention28.
“Obama campaign staffers referred to Biden blunders as
“Joe Bombs” 'and kept Biden uninformed about strategic
discussions.”29 According to the Pew Research Center's
Project for Excellence in Journalism, “Biden's vice-presi­
dential campaigning gained little media visibility [as] ...
Biden was included in only 5% of coverage of the race. »30

•

“Biden was officially nominated- for vice president by
voice .vote at the on August 27th 2008 by voice vote at the
'2008 Democratic National Convention in Denver. »31
Weeks later, “with the bankruptcy of Lehman Brothers
on September 15, 2008 and a subsequent international
..... banking crisis, financial institutions worldwide suffered
, severe damage.” Years later it became apparent that
“...the worst performing mortgages were funded through
the “shadow banking system” and that competition from
the shadow banking system ... pressured more tradi­
tional institutions to lower their underwriting standards
28 Broder, John M. (October 30,2008). "Hitting the Backroads, and
Having Less to Say". The New York Times. Retrieved October
31,2008.; Tumulty, Karen (October 29,2008). "Hidin' Biden: Reining
In a Voluble No. 2". Time. Retrieved November 1,2008.
29Leibovigh, Mark (May 8,2012). "FOr a Blunt Biden, an Uneasy
-Supporting Role". The New York Times, p. 1. Archived from the

/

ORIGINAL ON JANUARY 3, 2021. RETRIEVED JANUARY 24, 2021.

30 JuRKdwiTz, Mark (September 14,2008). "Northern Exposure
Still Dominates the News". Pew Research Center.
Retrieved November 24,2008.
31Gray, Alan (August 29,2008). "Democrats Formally Nominate
Barack Obama for U.S. Presidency". NewsBlaze.
14

f

i

i

E. Biden's Longstanding Interest in Scientific Re­
searchers
/

Charles Lieber, the Principal Investigator of the grant
funded research involving electronic mesh has a closely
related historical timeline of scientific achievements that
directly correlate with Biden's political agenda.
“Charles M. Lieber was born in Philadelphia, Pennsylva­
nia in 1959. He attended Franklin and Marshall College
for his undergraduate education and graduated with hon­
ors in Chemistry. After doctoral studies at Stanford Uni­
versity and postdoctoral research at the California Insti­
tute of Technology, he moved to the East Coast in 1987 to
assume the position of Assistant Professor at Columbia
University. Here Lieber embarked upon a new research
program addressing the synthesis and properties of low­
dimensional materials. He moved to Harvard University
in 1991 and holds a joint appointment in the Department
of Chemistry and Chemical Biology and the Harvard
John A. Paulson School of Engineering and Applied Sci­
ences, as the Joshua and Beth Friedman University Pro­
fessor. He also serves as the Chair of the Department of
Chemistry and Chemical Biology. Lieber has been a pio­
neer in nanoscience and nanotechnology where he has
originated new paradigms that have defined the rational
growth, characterization, and original applications of
functional nanometer diameter wires and heterostruc35Turner, Trish (January 15,2009). “Senate Releases $350
Billion in Bailout Funds to Obama.” Fox News. Associated
Press.; Hulse, Carl (January 25,2010). “Biden's Son Will Not
Run for Delaware's Open Senate Seat.” The New York Times.
16

tures. Lieber has provided seminal concepts central to
the bottom-up paradigm of nanoscience, and has been a
leader in defining directions and demonstrating applica­
tions of nanomaterials in areas ranging from electronics,
computing, and photonics, as well as pioneering the inter­
face between electronics with biology and medicine, in­
cluding his current focus in brain science....
Lieber has published over 400 papers in peer-reviewed
journals and is the principal inventor on more than 50
patents. In his spare time, Lieber has been active in com­
mercializing nanotechnology, and founded the nanotech­
nology company Nanosys, Inc. in 2001 and the new
nanosensor company Vista Therapeutics in 2007. »36
Lieber was arrested on Jan. 28, 2020, and charged by
criminal complaint. The U.S. Department of Justice Pub­
lished statement on Tuesday, June 9,2020.37
In March 2016, Mr. Powell had an idea: A mobile shop­
ping application that would allow retail customers to walk
into physical stores, scan items using their smartphone
cameras, and checkout right on their phones.
Mr. Powell began prospecting the self-checkout market
opportunity starting with the National Retail Federa­
tion’s (NRF) Top 250 Global Retailers listing by order of
consolidate global sales figures. Walmart topped the list
with $435 billion in 2015. He understood then that if 10%
36 http://cml.harvard.edu/people/charles-m-lieber
37 https://www.justice.gov/opa/pr/harvard-university-professorINDICTED-FALSE-STATEMENT-CHARGES

17

of shoppers paid a 1% transaction fee for a self-checkout
convenience service at Walmart stores in 2015, then the
provider of that service would have created $435 million
of revenue from that one merchant customer.
Mr. Powell was unable to identify any competitors using
mobile phones for ‘cashierless’ checkout when conducting
an internet search for such a finding at the time. He be­
gun to adopt a vision and passion for developing a suit­
able product of this capability and thereby establishing a
profitable business.
Another top retailer on the NRF list that year was No.
11, E-Mart: headquartered in Seoul, south Korea having
had $110 billion in sales 2015. Mr. Powell made plans to
visit and attract the business of E-Mart. He also made
every effort to safeguard his growing market intelli­
gence.
For further details, see the attached Draft Amended
Complaint, comprising all of the details regarding Mr.
Powell's antitrust litigation against Alphabet Inc. in April
2019, following the January 2019 scientific publication by
Ovid Technologies and Mr. Biden's February/March 2019
announcements of his candidacy for president. The suit
was dismissed due to behavior that was inconsistent with
the otherwise integral exercise of public and private fidu­
ciary duty.

18

F. U.S. Russia-Relations Panel
Prior to his presidential campaign, Mr. Biden partici­
pated in the Council on Foreign Relations' panel on U.S.Russia Relations with experts Carpenter and Haas. Dur­
ing the panel, Mr. Biden aroused the suspicions of the
audience with a number of, what appear to be, uninten­
tional revelations about his true intentions and ambi­
tions. For instance at one point he said. “I don't want to
acknowledge you guys are spying on the intelligence
agencies. „38
After a question about U.S.-Russia relations concerning
the Middle East, Mr. Biden says at one point that we are
going to see troop drawdowns in the region. At one point
he says, again seemingly unintentionally, that Russia has
a tiger by the tail and we're going to let them have it.
This begs the question: Who's the tiger? 39
As described in reporting by Vice News and Wired Mag­
azine, a Google/Alphabet subsidiary named Jigsaw began
paying for disinformation campaigns run by Russian
hackers.
Google founder Sergey Brin also happens to be a Rus­
sian immigrant who moved to the U.S. as a child, where
his father, a mathematician, worked at Maryland University.“[In early 2018,] Jigsaw [a Google subsidiary] re38Id. at 50:40
39FORMER VICE PRESIDENT BIDEN ON U.S.-RUSSIA
RELATIONS: https://www.c-span.org/video/7440141-2/vicePRESIDENT-BIDEN-WARNS-ONGOING-RUSSIAN-GLOBAL-INTERFERENCE

AT 38:10
19

searchers and a security firm they partnered with paid
$250 to a Russian organization that specializes in disin­
formation campaigns. Jigsaw then created a site with
fake content criticizing Joseph Stalin, and the Russian
troll services company launched a two-week disinforma­
tion campaign on Twitter, forums, and via fake sites to
attack the phony sites’ agenda. The purpose of the ex­
periment was nominally to show how easily online disin­
formation campaigns can be set up, Critics lambasted
the experiment, in which Jigsaw paid for a Russian troll
army to orchestrate a disinformation campaign. For
some, this was a misguided attempt to document the
problem of disinformation and fake news.”
Around this time, December 2017, (just prior to the U.S.Russia Relations panel), Mr. Powell noticed something
strange that he had never seen before. The first page
that came up in a Google search for Pricecheck was a
TechCrunch article about Amazon’s Pricecheck App
from 2010. Mr. Powell was annoyed and confused by it.
He was certain he had checked everywhere on the web
and remembers finding nothing related to Pricecheck in
his initial market research. However, something he did
not notice at the time but later verified the legitimacy of
this article, was that the trademarks/logos from
Linkedln and Twitter are from around 2017, in this 2010
article archive. A legitimate article from 2010 shows the
older versions. A second article supposedly from the
same period and it mentions Mr. Powell’s birthdate “De­
cember 24”, and uses a very similar check mark as to
Pricecheck's pending trademark registration in order to
20

discredit Pricecheck and Mr. Powell and pointedly jest
underhandedly about his life and his business, and to
make his intellectual property look like a copy, when the
opposite is the truth. See pg. 57 of the draft amended
complaint for image attachments and more details.
In response to a question about the motivation for the
state of affairs and why things are the way that they,
Biden responds by saying “[t]his is all designed to pro­
tect vast amounts of wealth and vast amounts of corrup­
tion.” After the natural confusion tension in the room
about the next begged question to arise in any reason­
able mind: 'what has been designed?' Haass makes an
uncomfortable joke by saying “[t]his meeting continues
to be on the record, so you've just been read your Mi­
randa rights. »40
The most concerning part of the discussion arose in
Biden's description about tactics and methodology where
he says: “We are not going to be able to hold the rest of
Europe, on these sanctions, and Russia is not going to
roll across the inter-line here and take over the rest of
the country with their tanks, what they're going to do is
take your economy down, you're gonna be absolutely
buried, and you're gonna be done, and that's when it all
goes to hell, and to the best of my knowledge, and I have
... (longpause, and sigh)... it's a very difficult spot to be
in now..!.. »41
40https://www.c-span.org/video/?c4968172/user-clip-motive User
created CLIP of FORMER VICE PRESIDENT BIDEN ON U.S.RUSSIA RELATIONS
41 FORMER VICE PRESIDENT BIDEN ON U.S.-RUSSIA
21

He goes on to say: “I'll give you one concrete example, I,
I was, not I, I but it just happened to be, that was the as­
signment I got, I got all the good ones, uh, so I got
Ukraine, um I remember going over convincing our
team, our-or others to be convincing that ...”42 The re­
peated admissions of involvement in corruption appears
evident to others on and off the panel, for instance the
other panelist Michael Carpenter and a woman from the
audience have apparent suspicions and concerns.
Towards the end of the discussion Mr. Carpenter says
with a stare at the height of his suspicion that: “We're
going to see the low boil, we're going to see, more impor­
tantly, the dirty money flowing into Kiev, and they've got
elections coming up in 2019” .... Biden, showing body
language that he realizes Carpenter and others are on to
him and his scheme, says close to his final words on the
panel: “I'm not going to live this down.”
Afterwards in discussions with members of the audience
that are not audible amidst the noise of the crowd, a 0.5x
speed review and and lip reading of Joe Biden and a
woman in magenta shows that people confront him about
the plans he has, using what must be some kind of com­
munication technology. The lady says at one point: “I
know what's going on.” “You said it twice.”

RELATIONS: https://www.c-span.org/video/7440141-2/vicePRESIDENT-BIDEN-WARNS-ONGOING-RUSSIAN-GLOBAL-INTERFERENCE
at 55:37

42 Id. at 52:05
22

COUNCIL*
FOREIGN
RELATION^

SSSr
REUT&&

\

COUNQlat
I

ris

MB!*
1039 am FT
ISN

ATIONS
f.

?V

IMI

U.S.RUSStA RELATIONS
Council on Foreign Relations
Washington, DC

C-SPAN
c-span.org
«c«p«n

Biden: “This is going tx) blow over”
•t«Ik
■l

council*

FOREIGN
RELATIONS

m council*.
T. C08EIGN

ft

139pmET
COUM

^Ktunoss

JOUN

,S£l
T

m

FOR!

rA

E

?

U.S.-RUSSIA RELATIONS
•7.
[•1

pJL.

She replies: “If you get tried for treason then what am I
supposed to do.”
cou
FORE
REU

/ •
& 2-Jr Kr

1:39 pm CT

/

JCIU.
IN

km
Zi

r.

r
U.S.-RUSSIA RELATIONS
gl

Biden responds first by touching the woman's face ro­
mantically, she is visually offended as are others, he con­
tinues by touching her face again as if to kiss her. She re­
sponds angrily, others are visibly disgusted, some are
surprised, what appear to be security staff incline her
dismissal from the conversation.43
wjwrer*
■
At lai-iuNS

r
Council on Foreign Relations
Washington, DC

C-SPAN
C' cjtnn.ftrsfi

/

Much later, between the 2020 election campaign debates,
Trump also claimed that Biden would use a hidden elec­
tronic earpiece for the debate, demanding that Biden's
ears be searched. Biden declined.

43 Id. At 1:07:18

24

III.

Reasons for Granting the Petition

A. Petition of National Importance
The extraordinary nature of this circumstance is of
national importance. The petition does not seek the
power of the Court on a lower court matter, but rather
seeks urgent action to address the concerns of similarly
situated individuals and entities held hostage in
internally under similar ransom seeking activity, using
actual and attempted physical and psychological controls
by Mr. Biden's foreign-directed co-conspirators.
B. Article II AUMF Powers are Limited by the Fourth
Amendment
Theater security operations in the United States
involving civilians is a violation of the 4th Amendment
right of people to be secure in their persons, houses,
papers, and effects.44 “The ultimate goal of this provision
is to protect people’s right to privacy and freedom from
unreasonable intrusions by the government. »45
Essentially, every persons thoughts at home, at work,
and in practice of religion are exposed. Leading to what
has become the greatest compromise to national security
in American history.
44 United States Constitution. 4™ Amendment.
45 Legal Information Institute. Wex Toolbox. Last edited by
Jonathan Kim 2017.
https://www.law.cornell.edu/wex/fourth amendment
25

C. First Amendment Violations
In order to speak freely one must be able to think freely.
Inhibiting the freedom of speech is unconstitutional and
Congress shall make no law that says otherwise, and
therefore anything used by law, including the AUMF,
that says otherwise is unlawful.46

46 United States Constitution. 1st Amendment.
26

IV. CONCLUSION
For the reasons set forth above, the Court should grant
this motion for leave to file petition for writ of
mandamus.
Respectfully,

Jordan Thomas Taylor Powell
Petitioner, Pro se
1263 1st Street. SE,#523
Washington, DC 20003
(202) 503-5284
Email: ittp@pm.me

July 13,2021

27

